 AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE 

  COOPERATIVE AGREEMENT AWARD UNDER THE
	
SOLVING COLD CASES WITH DNA PROGRAM TO THE
	
   COLORADO DEPARTMENT OF PUBLIC SAFETY
	
             DENVER, COLORADO
	


          U.S. Department of Justice

        Office of the Inspector General

                 Audit Division


          Audit Report GR-60-13-009

                  July 2013

            AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE
	
               COOPERATIVE AGREEMENT AWARD UNDER
	
           THE SOLVING COLD CASES WITH DNA PROGRAM TO
	
            THE COLORADO DEPARTMENT OF PUBLIC SAFETY
	
                        DENVER, COLORADO
	

                              EXECUTIVE SUMMARY
	

       The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of one cooperative agreement
totaling $687,250, awarded by the Office of Justice Programs’ (OJP),
National Institute of Justice (NIJ) to the Colorado Department of Public
Safety (CDPS), as shown in Exhibit 1.

EXHIBIT 1: COOPERATIVE AGREEMENT AWARDED TO THE
           COLORADO DEPARTMENT OF PUBLIC SAFETY
                       COOPERATIVE                  PROJECT
                        AGREEMENT        AWARD       START     ANTICIPATED     AWARD
  AWARD NUMBER           PROGRAM          DATE       DATE       END DATE       AMOUNT
                     Solving Cold
2010-DN-BX-K234                         09/17/10    10/01/10    09/30/13       $687,250
                     Cases With DNA
                                                                    Total:     $687,250
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)

      Cooperative agreement 2010-DN-BX-K234 was awarded under the
Solving Cold Cases with DNA Program. The purpose of the program is to
provide assistance to states and units of local government to identify,
review, and investigate Uniform Crime Reporting (UCR) Part 1 Violent Crime
cold cases that have the potential to be solved through DNA analysis and to
locate and analyze biological evidence associated with these cases. 1 For the
purposes of this program, the NIJ defines a violent crime cold case as any
unsolved UCR Part 1 violent crime case for which all significant investigative
leads have been exhausted.

Our Audit Approach

      The purpose of the audit was to determine whether reimbursements
claimed for costs under the cooperative agreement were allowable,
reasonable, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the cooperative agreement, and to determine
program performance and accomplishments. The objective of the audit was

      1
          In the Federal Bureau of Investigation’s Uniform Crime Reporting (UCR) Program,
violent crime is composed of four offenses: murder and nonnegligent manslaughter, forcible
rape, robbery, and aggravated assault.
to review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) cooperative agreement expenditures,
including personnel costs; (4) budget management and control;
(5) matching; (6) federal financial and progress reports; (7) program
performance and accomplishments; and (8) monitoring of subgrantees and
contractors.

      We tested compliance with what we consider to be the most important
conditions of the cooperative agreements. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial Guide
and cooperative agreement award documents.

      We examined the CDPS’s accounting records, financial and progress
reports, and operating policies and procedures and found:

   •	 $1,820 in unallowable costs used to purchase items that were not
      included as part of the approved cooperative agreement budget;

   •	 performance metrics reported to the NIJ were inaccurate and 

      unsupported; and


   •	 the CDPS may not complete the proposed program goals prior to the
      end of the cooperative agreement.

      This report contains three recommendations, which are detailed in the
Findings and Recommendations section of the report. Our audit objectives,
scope, and methodology are discussed in Appendix I.




                                      ii
                                   Table of Contents
	

INTRODUCTION ................................................................................ 1
	
  Background.......................................................................................1

  Our Audit Approach............................................................................2

FINDINGS AND RECOMMENDATIONS................................................ 4
	
 Internal Control Environment ..............................................................4

   Single Audit....................................................................................4

   Prior Audits ....................................................................................5

   Financial Management System..........................................................5

 Drawdowns .......................................................................................5

 Cooperative Agreement Expenditures ...................................................7

   Personnel and Fringe Benefits...........................................................7

   Other Direct Costs...........................................................................8

   Matching Costs ...............................................................................8

 Budget Management and Control .........................................................9

 Cooperative Agreement Reporting .......................................................9

   Financial Reporting..........................................................................9

   Categorical Assistance Progress Reports .......................................... 10

 Program Performance and Accomplishments ....................................... 11

 Conclusion ...................................................................................... 13

 Recommendations ........................................................................... 14

APPENDIX I – OBJECTIVES, SCOPE, AND METHODOLOGY............... 15
	
APPENDIX II – CDPS’s RESPONSE TO THE DRAFT REPORT ............. 17
	
APPENDIX III – OJP’s RESPONSE TO THE DRAFT REPORT.............. 21
	
APPENDIX IV – OIG ANALYSIS AND SUMMARY OF ACTIONS 

 NECESSARY TO CLOSE THE REPORT............................................. 24
	
           AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE
	
              COOPERATIVE AGREEMENT AWARD UNDER
	
          THE SOLVING COLD CASES WITH DNA PROGRAM TO
	
           THE COLORADO DEPARTMENT OF PUBLIC SAFETY
	
                       DENVER, COLORADO
	

                               INTRODUCTION

       The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of one cooperative agreement
totaling $687,250, awarded by the Office of Justice Programs (OJP), National
Institute of Justice (NIJ) to the Colorado Department of Public
Safety (CDPS), as shown in Exhibit 1.

EXHIBIT 1: COOPERATIVE AGREEMENT AWARDED TO THE
           COLORADO DEPARTMENT OF PUBLIC SAFETY
                      COOPERATIVE                PROJECT
                       AGREEMENT       AWARD      START     ANTICIPATED    AWARD
  AWARD NUMBER         PROGRAM          DATE      DATE       END DATE      AMOUNT
                   Solving Cold
2010-DN-BX-K234                       09/17/10   10/01/10    09/30/13      $687,250
                   Cases With DNA
                                                                 Total:    $687,250
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)

Background

       OJP’s mission is to increase public safety and improve the fair
administration of justice across America through innovative leadership and
programs. OJP seeks to accomplish its mission by disseminating
state-of-the-art knowledge and practices across America and providing
grants for the implementation of these crime fighting strategies. To support
this mission, the NIJ provides objective and independent knowledge and
tools to reduce crime and promote justice, particularly at the state and local
levels.

      Cooperative agreement 2010-DN-BX-K234 was awarded under the
Solving Cold Cases with DNA Program. The purpose of the program is to
provide assistance to states and units of local government to identify,
review, and investigate Uniform Crime Reporting (UCR) Part 1 violent crime
cold cases that have the potential to be solved through DNA analysis and to




                                          1

locate and analyze biological evidence associated with these cases. 1 For the
purposes of this program, the NIJ defines a violent crime cold case as any
unsolved UCR Part 1 violent crime case for which all significant investigative
leads have been exhausted.

       According to the CDPS’s website, the CDPS includes five divisions
created by the Colorado General Assembly: the Colorado State Patrol,
Colorado Bureau of Investigation (CBI), Division of Criminal Justice, Division
of Fire Prevention and Control, and Division of Homeland Security and
Emergency Management. The CBI administers cooperative agreement
2010-DN-BX-K234, and was created to support and assist local, county, and
state criminal justice agencies through the provision of professional
investigative and forensic laboratory services, as well as the management
and administration of criminal justice records and data sharing.

      As an assist agency, the CBI provides investigative services to local
law enforcement, district attorneys and other state agencies through
requests for service, 24 hours per day, seven days per week. Field agents
are stationed at the CBI headquarters in Denver as well as regional offices in
Grand Junction, Durango, and Pueblo, Colorado. The investigative expertise
of the CBI’s field agents includes crimes against persons, arson
investigations, polygraph examination, identity theft, public corruption, drug
investigations, and other complex crime investigations. CBI agents also
provide training to law enforcement agencies and the community in their
respective regions. In addition, the CBI provides forensic services to state
agencies, and is responsible for the collection, preservation, and analysis of
evidence found at crime scenes throughout the state.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the cooperative agreements. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial Guide
and cooperative agreement award documents. We tested the CDPS’s:

   •	 internal control environment to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard cooperative agreement funds and ensure
      compliance with the terms and conditions of the cooperative
      agreements;

      1
          In the Federal Bureau of Investigation’s Uniform Crime Reporting (UCR) Program,
violent crime is composed of four offenses: murder and nonnegligent manslaughter, forcible
rape, robbery, and aggravated assault.

                                            2

  •	 cooperative agreement drawdowns to determine whether
     cooperative agreement drawdowns were adequately supported and if
     the CDPS was managing cooperative agreement receipts in accordance
     with federal requirements;

  •	 cooperative agreement expenditures to determine the accuracy
     and allowability of costs charged to the cooperative agreements;

  •	 budget management and control to determine the CDPS’s
     compliance with the costs approved in the cooperative agreement
     budgets;

  •	 Federal Financial Reports (FFRs) and Progress Reports to
     determine if the required FFRs and Progress Reports were submitted in
     a timely manner and accurately reflect cooperative agreement activity;
     and

  •	 cooperative agreement objectives and accomplishments to
     determine whether the CDPS has met the cooperative agreement
     objectives.

     The findings and recommendations are detailed in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology appear in Appendix I.




                                    3

               FINDINGS AND RECOMMENDATIONS

      We determined that the CDPS maintained policies and
      procedures related to accounting functions, and the accounting
      system had effective internal controls. We also found that the
      CDPS was generally in compliance in the following areas:
      drawdowns, budget management and control, and financial
      reports. However, we identified $1,820 in unallowable costs
      used to purchase items that were not included as part of the
      approved cooperative agreement budget. We also found that
      the CDPS’s program performance data reported to the NIJ in the
      semi-annual progress reports were inaccurate and unsupported.
      Additionally, we found that as an assist agency, the success of
      the CDPS’s cold case efforts depends largely on participation by
      local agencies throughout the state to locate and submit
      evidence for DNA analysis. However, the CDPS's implementation
      of the cooperative agreement program did not address
      the resource constraints that limited the work performed on cold
      case investigative efforts, thereby reducing the effectiveness of
      the CDPS's cold case efforts. As a result, we have serious
      concerns over the CDPS’s ability to successfully complete the
      objectives of the cooperative agreement prior to the anticipated
      program end date.

Internal Control Environment

       We reviewed the CDPS’s Single Audit Report, other prior audits, and
the financial management system to assess the organization’s risk of
non-compliance with laws, regulations, guidelines, and terms and conditions
of the cooperative agreements. We also interviewed management and key
personnel, and inspected documents and records in order to further assess
risk.

Single Audit

      The Office of Management and Budget (OMB) Circular A-133 requires
that non-federal entities that expend $500,000 or more per year in federal
awards have a single audit performed annually. The most recent Single
Audit of the State of Colorado was for Fiscal Year (FY) 2012. We reviewed
this audit report and did not identify any findings related to the CDPS, the
CBI, or cooperative agreement 2010-DN-BX-K234 that were significant
within the context of our audit.



                                      4

Prior Audits

       We requested documentation of audit reports for all external and
internal audits conducted at the CBI’s DNA laboratory during the last year.
The CDPS provided us with the American Society of Crime Laboratory
Directors Laboratory Accreditation Board (ASCLD/LAB) annual accreditation
audit report form for the CBI labs located in Denver, Pueblo, and Grand
Junction. We reviewed the three audit reports and did not identify any
findings that were significant within the context of our audit. Additionally,
we obtained the ASCLD/LAB Certificates of Accreditation for all three
locations, which demonstrate that the laboratories meet the standards and
requirements set forth by the ASCLD/LAB Accreditation Manual. The CDPS
also provided the results of the most recent Quality Assurance Standards
audit for forensic DNA testing laboratories for the same three locations and
the DNA Database Unit. We reviewed the four audit reports and did not
identify any findings that were significant within the context of our audit.

Financial Management System

       We reviewed the CDPS’s financial management system, interviewed
CDPS officials, and inspected cooperative agreement documents. Internal
control procedures for procurement included obtaining proper approval prior
to acquiring goods and disbursing funds. Internal control procedures for
payroll included tracking employee activity using timesheets and a
supplemental overtime form. Overtime was verified by a supervisor and the
cooperative agreement manger, and necessitated director-level approval
prior to payment. Internal control procedures for monitoring sub-recipients
included signed written agreements between the CDPS and the sub-
recipient, and requiring that reimbursement requests be accompanied by
supporting documentation. We did not identify any weaknesses in the
controls within the context of our audit.

Drawdowns

      CDPS officials stated that drawdowns were requested on a
reimbursement basis. According to the OJP Financial Guide, the grant
recipient should time drawdown requests to ensure that federal cash on
hand is the minimum needed for disbursements to be made immediately or
within 10 days. We analyzed the cooperative agreement in our audit
to determine if the total expenditures recorded in the CDPS’s accounting
records were equal to, or in excess of, the cumulative drawdowns. We
determined that total expenditures were equal to cumulative drawdowns.


                                      5

       As of January 18, 2013, the date of the most recent drawdown
included as part of our audit, the CDPS had drawn down a total of $85,578,
or 12.5 percent of the total award. The cooperative agreement was
projected to end on September 30, 2013, meaning the CDPS had just over
eight months to draw down the remaining $601,672, or 87.5 percent of the
total award, as shown in Exhibit 2.

EXHIBIT 2: ANALYSIS OF DRAWDOWNS 2
                                         TOTAL AMOUNT DRAWN       REMAINING TO BE DRAWN
    AWARD NUMBER         TOTAL AWARD      AS OF JAN 18, 2013         BY SEPT 30, 2013
  2010-DN-BX-K234        $687,250         85,578 (12.5%)            601,672 (87.5%)
Source: NIJ drawdown records

       CDPS officials identified the lack of a response from participating local
agencies as the primary reason for delays in the program. CDPS officials
informed us that as an assist agency, the CBI relies on local law enforcement
agencies throughout Colorado to request assistance on cold cases. At the
start of the cold case cooperative agreement program, the CBI reviewed a
statewide database of all unsolved homicides to identify cases that had a
high potential to be solved using DNA based on the circumstances of the
case. After this initial review, the CDPS contacted local law enforcement
agencies to inform them that their cold case had been selected as a potential
candidate for the use of cooperative agreement funds. Before participating
in the cooperative agreement program, the CDPS required local law
enforcement agencies to sign a memorandum of understanding outlining the
rules and expectations of participation in the cooperative agreement
program. Local agencies were then encouraged to participate in an in depth
case review with the CDPS laboratory and investigative staff. At this review,
laboratory and law enforcement personnel would identify pieces of evidence
from crime scene photos and evidence logs that had a high probability of
developing a DNA profile. Local law enforcement personnel would then
return to their agency and attempt to locate and submit the pieces of
evidence identified in the review to the CDPS laboratory for analysis. The
CDPS required the local law enforcement agencies to use their own
resources to fund the initial review and identification of any remaining
biological evidence. The CDPS only provided funding to the local law
enforcement agencies once an additional lead or potential piece of evidence
was identified, after which, the CDPS would reimburse the costs of overtime
and travel associated with local law enforcement personnel obtaining
additional evidence or following up on investigative leads.

      2
          Throughout this report differences in the total amounts are due to rounding.



                                              6

      CDPS officials informed us that, based on their understanding of the
cooperative agreement program, overtime associated with the initial review
and identification of any remaining biological evidence was not permitted.
However, the 2010 NIJ Solving Cold Cases With DNA solicitation states that
funding is available to identify, collect, retrieve, and evaluate biological
evidence from violent crime cold cases that may reasonably be expected to
contain DNA. In addition, activities such as interviewing victims, witnesses,
and suspects, are permissible in violent crime cold case investigations that
have the potential to be solved through DNA analysis until either all samples
with potential DNA evidence have been recovered and analyzed or the
review of the case demonstrates that no biological material was present for
further analysis.

       In its application materials, the CDPS cites a general lack of
investigative resources to work cold cases, and that local law enforcement
agencies were primarily interested in obtaining funds necessary to review
their cold case files. In our opinion, the restrictions placed on the
investigative use of funds due to the CDPS’s misunderstanding of the
allowable uses of funds prevented cooperative agreement funds from being
utilized where they were most needed, and as a result, limited participation
by local law enforcement agencies. Because of the lack of local agency
participation and the limited time remaining on the cooperative agreement,
we have concerns that the CDPS will be unable to fully utilize the awarded
funds to complete the objectives of the program. This issue is further
discussed in the Program Performance and Accomplishments section of this
report.

Cooperative Agreement Expenditures

      According to the CDPS’s accounting records as of April 10, 2013,
cooperative agreement expenditures totaled $93,953 and included 148
direct cost transactions. We selected a judgmental sample of 26
transactions totaling $28,997 to review, in order to determine if cooperative
agreement expenditures were allowable, reasonable, and in compliance with
the terms and conditions of the award.

Personnel and Fringe Benefits

      The sample included 11 payroll transactions totaling $12,836. These
transactions were from two non-consecutive pay periods and included the
cumulative overtime wages and fringe benefits expenditures for every
employee that worked under the cooperative agreement during these pay


                                      7

periods. For the two selected pay periods, we determined that the overtime
wages and fringe benefits expenditures charged to the cooperative
agreement were computed correctly, properly authorized, accurately
recorded, and properly allocated to the cooperative agreement.

Other Direct Costs

       The sample also included 15 non-payroll related transactions totaling
$16,161. For 13 of these transactions, we determined that the expenditures
were adequately supported, approved, and allowable. The two remaining
expenditures in the sample were for general office supplies. General office
supplies were not included as part of the approved cooperative agreement
budget. According to the OJP Financial Guide, grantees are required to
initiate a Grant Adjustment Notice (GAN) for changes in scope that affect the
budget. We did not see evidence that the CDPS contacted the NIJ, either
formally through a GAN to change the scope or informally through other
means to confirm that purchasing the items did not constitute a change in
scope. As a result, we consider the costs unallowable. We expanded our
analysis to include all general office supplies expenditures charged to the
cooperative agreement for a total of 13 transactions totaling $1,820.
Therefore, we identified $1,820 in unallowable costs used to purchase items
that were not included as part of the approved budget.

       We discussed this issue with CDPS officials. CDPS officials responded
by moving supplies expenditures totaling $1,820 out of the cooperative
agreement and into another fund. We reviewed documentation
demonstrating that the expenditures were no longer charged to the
cooperative agreement. As a result, we offer no recommendation related to
this issue because it has been resolved.

Matching Costs

      The CDPS was required to provide $233,196 in matching funds under
the cooperative agreement. According to the CDPS’s accounting records, as
of April 23, 2013, the CDPS had provided $266,708 in matching funds. Of
this amount, $81,900 was provided for laboratory supplies related to DNA
analysis of cold case samples, and $184,808 was provided for salaries and
fringe benefits for personnel working on cold cases.

       We reviewed the supporting documentation for the matching costs,
and found the charges to be reasonable and supported. However, we
identified that a portion of the matching costs represented salaries of
staff that were paid by other participating agencies. CBI officials explained


                                      8

that the dollar value associated with these matching charges was
determined by calculating the pay rate for the CBI equivalent position rather
than using the employees’ actual pay rate. The OJP Financial Guide states
that when an employer other than a grantee, subgrantee, or cost-type
contractor furnishes free of charge the services of an employee in the
employee’s normal line of work, the services will be valued at the
employee’s regular rate of pay exclusive of the employee’s fringe benefits
and overhead costs. We brought this issue to the CDPS officials' attention,
and they removed the employees paid by other institutions from the
matching funds provided under the cooperative agreement. The CDPS
subsequently provided the updated accounting records for the matching
funds, eliminating the charges for employees paid by other agencies. As a
result, the CDPS accounting records show $264,453 in matching funds,
which exceeds the required match amount. Therefore, we did not take
exception to this issue.

Budget Management and Control

      The NIJ approved a detailed budget for the cooperative agreement
which was organized by defined budget categories. According to the OJP
Financial Guide, the cooperative agreement recipient must initiate a GAN for
a budget modification that reallocates funds among budget categories, if the
proposed cumulative change is greater than 10 percent of the total award
amount. We compared cooperative agreement expenditures to the
approved budget to determine whether the CDPS transferred funds among
direct cost categories in excess of 10 percent. We determined that the
CDPS complied with the requirement, as the cumulative difference between
actual category expenditures and approved budget category totals was not
greater than 10 percent.

Cooperative Agreement Reporting

      We reviewed the Federal Financial Reports (FFR) and Categorical
Assistance Progress Reports (progress reports) to determine if the required
reports were submitted on time and accurate.

Financial Reporting

      The OJP Financial Guide states that grant recipients must report
expenditures online using the FFR no later than 30 days after the end of
each calendar quarter. We reviewed the submission dates for the four most
recent FFRs for the cooperative agreement, and determined that all four
were submitted on time.


                                      9

      We also reviewed financial reporting for accuracy. According to the
OJP Financial Guide, recipients shall report the actual expenditures and
unliquidated obligations incurred for the reporting period on each financial
report. We compared the reports to the CDPS’s accounting records and
determined the reports were accurate.

Categorical Assistance Progress Reports

      According to the OJP Financial Guide, progress reports are due
semi-annually on January 30th and July 30th for the life of the award. We
reviewed the submission dates for the five progress reports submitted for
the cooperative agreement. The five progress reports were submitted on
time.

       We also reviewed the progress reports for accuracy. According to the
OJP Financial Guide, the funding recipient agrees to collect data appropriate
for facilitating reporting requirements established by Public Law 103-62 for
the Government Performance and Results Act. The funding recipient should
ensure that valid and auditable source documentation is available to support
all data collected for each performance measure specified in the program
solicitation. We originally selected the two most recent progress reports for
our audit review. These reports covered the reporting periods from January
2012 through June 2012 and July 2012 through December 2012.

       The NIJ’s Solving Cold Cases with DNA Progress Report Form includes
a performance measure table, which captures six performance metrics for
each reporting period over the course of the cooperative agreement.
Performance metrics include: (1) number of violent crime cold cases
reviewed, (2) number of violent crime cold cases reviewed in which
biological evidence still existed, (3) number of violent crime cold cases with
biological evidence that are subjected to DNA analysis, (4) number of violent
crime cold cases that yielded a viable DNA profile, (5) number of DNA
profiles entered into the Federal Bureau of Investigation’s Combined DNA
Index System (CODIS), and (6) number of CODIS hits.

       CDPS officials informed us that investigative and laboratory staff
overseeing cold case work under the cooperative agreement track
performance using spreadsheets. At the end of each semi-annual reporting
period, the Agent in Charge assigned to the cooperative agreement program
will request updated performance data by email. The data is then compiled
and reported to the NIJ.



                                      10

      We reviewed the supporting spreadsheets provided by the CDPS and
found that the tracking spreadsheets did not contain sufficient detail to
determine the reporting period in which program accomplishments occurred.
As a result, we reviewed the accuracy of the cumulative metrics reported to
the NIJ by the CDPS rather than from the two most recent progress reports
originally selected. Based on our review, we determined that the
performance data reported to the NIJ was not accurate or supported. We
brought this to the CDPS officials’ attention and were informed that the
Agent in Charge was not provided the laboratory’s tracking spreadsheet in
the past and simply relied on the information provided to him through the
semi-annual email request. We determined that the discrepancy between
the supporting documentation and the performance metrics reported to the
NIJ resulted from a lack of communication between staff responsible for
performing the review and analysis of cold cases and those responsible for
reporting performance metrics. We recommend that the OJP ensures that
the CDPS maintains valid and auditable source documentation to support
both the activity and the period in which it occurs.

Program Performance and Accomplishments

      As previously mentioned in this report, the purpose of cooperative
agreement 2010-DN-BX-K234 was to provide assistance to states and units
of local government to identify, review, and investigate UCR Part 1 Violent
Crime cold cases that have the potential to be solved through DNA analysis
and to locate and analyze biological evidence associated with these cases.
We reviewed the NIJ cooperative agreement solicitation, CDPS
documentation, and interviewed CDPS officials to determine whether the
program goals were implemented. The goals and the degree to which the
cooperative agreement met those goals are detailed below.

       For its first goal, the CDPS proposed to review and prioritize the state’s
577 cold case homicides in order to select 75 cases most likely to yield DNA
evidence. Following the case selection, the CDPS would contact the
investigative agencies in charge of the selected cases to request their
participation in the cooperative agreement and provide assistance in
identifying and obtaining any remaining biological evidence for DNA
analysis. CDPS officials explained that agencies were required to sign a
memorandum of understanding (MOU) prior to participation in the
cooperative agreement, although not all agencies that had signed an MOU
ultimately participated in the cold case program. According to the CDPS’s
financial records, MOUs were signed for 29 cases from 14 agencies. As
previously discussed in the Drawdowns section of this report, CDPS officials
attributed the delay in the completion of this goal to the lack of a response


                                       11

from participating local agencies. In order to fully utilize remaining award
funding, the CDPS expanded the laboratory analysis of cold cases beyond
the 75 high priority cold case homicides selected in the initial review to
include any cold case homicide evidence submitted to the
laboratory. According to the laboratory performance tracking spreadsheet,
as of April 23, 2013, the laboratory had received and analyzed biological
evidence from 38 cold case homicides.

       The CDPS’s second goal was to identify and perform additional DNA
testing of previously submitted sexual assault cases from the time period of
1994 to 2000, which would result in developing CODIS eligible DNA profiles.
CDPS officials stated that this portion of the project at the CBI went quickly.
According to progress reports, the CDPS identified 379 sexual assault cases
from 93 agencies that required re-analysis for inclusion into CODIS.
According to the laboratory performance tracking spreadsheet, evidence
associated with 47 of the 379 cases had been submitted, re-analyzed, and, if
a DNA profile was developed, entered into CODIS. CDPS officials told us
that they have sent several requests for the submission of additional
evidence, and are still awaiting a response from several jurisdictions.
However, all evidence that the CDPS has obtained has been updated for
inclusion in CODIS.

       Despite the CDPS’s efforts, participation by local law enforcement
agencies has been low. As a result, the CDPS had not drawn down
approximately 88 percent of the total award as of January 18, 2013. The
CDPS submitted a GAN for a no-cost extension of the cooperative
agreement, which was approved by the NIJ on February 8, 2013. In this
GAN, the CDPS described its plans to analyze sexual assault kits that had
been collected by local law enforcement agencies since 2007 but never
submitted for analysis as a way to utilize unspent cooperative agreement
funds. However, according to the 2010 NIJ Solving Cold Cases with DNA
solicitation, a violent crime cold case refers to any unsolved UCR Part 1
Violent Crime case for which all significant investigative leads have been
exhausted. Cases in which biological evidence was collected but never
analyzed, at a time when DNA technology was readily available, would not
fall within the definition of exhausting all significant investigative leads.
Therefore, in our opinion, the use of cooperative agreement funds for the
analysis of these previously unanalyzed sexual assault kits would be
unallowable. We brought this issue to CDPS officials’ attention, and they
informed us that although the analysis of these kits was proposed, no work
had been performed at the time of our audit.




                                      12

       Additionally, in another GAN approved by the NIJ on April 26, 2013,
the CDPS proposed to hire contract personnel to assist local law enforcement
agencies in the review and identification of cold case homicide biological
evidence. If items of evidence are identified in an initial review, these
contract investigators will contact the originating investigating agency to
inform them of the objectives and timelines of the cooperative agreement.
If the agency is receptive, the contract investigator will schedule an
appointment to locate and retrieve any biological evidence related to the
case that may still exist. Given the previous lack of local agency
participation, lack of local agency resources, and the fact that local law
enforcement agencies may be unwilling to hand over control of
investigations, we have serious concerns about the success of this approach
and the CDPS’s ability to utilize remaining funds before the September 30,
2013 end date of the cooperative agreement.

       Based on the information outlined above, we determined that the
CDPS may not complete the proposed program goals prior to the end of the
cooperative agreement. We recommend that the OJP assess the CDPS’s
ability to complete the proposed program goals prior to the end of the
cooperative agreement and evaluate the CDPS’s need for any remaining
unspent funds.

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the cooperative agreement were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
terms and conditions of the cooperative agreement, and to determine
whether the program goals and objectives were implemented. We examined
the CDPS’s accounting records, budget documents, financial and progress
reports, and operating policies and procedures. We found:

  •	 $1,820 in unallowable costs used to purchase items that were not
     included as part of the approved cooperative agreement budget;

  •	 performance metrics reported to the NIJ were inaccurate and 

     unsupported; and


  •	 the CDPS may not complete the proposed program goals prior to the
     end of the cooperative agreement.




                                    13

Recommendations

We recommend that OJP coordinate with the CDPS to:

1.	   Ensure performance metrics reported to the NIJ accurately reflect the
      program accomplishments that have occurred as a result of
      cooperative agreement funding.

2.	   Ensure that valid and auditable source documentation is maintained to
      support both the activity and the period in which it occurs.

3.	   Assess the CDPS’s ability to complete the proposed program goals
      prior to the end of the cooperative agreement and evaluate the CDPS’s
      need for any remaining unspent funds.




                                     14

                                                              APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of the audit was to determine whether reimbursements
claimed for costs under the cooperative agreement were allowable,
reasonable, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the cooperative agreement, and to determine
program performance and accomplishments. The objective of the audit was
to review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) cooperative agreement expenditures,
including personnel costs; (4) budget management and control;
(5) matching; (6) federal financial and progress reports; (7) program
performance and accomplishments; and (8) monitoring of subgrantees and
contractors. We determined that property management and program
income were not applicable to this cooperative agreement.

       We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. This was an audit of the OJP cooperative agreement
2010-DN-BX-K234 awarded to the Colorado Department of Public
Safety (CDPS). Our audit concentrated on, but was not limited to
September 17, 2010, the award date for cooperative agreement
2010-DN-BX-K234, through April 23, 2013. The CDPS had drawn down a
total of $85,578 in cooperative agreement funds through April 9, 2013.

      We tested compliance with what we consider to be the most important
conditions of the cooperative agreements. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial Guide
and the award documents.

       In conducting our audit, we performed sample testing in three areas,
which were cooperative agreement expenditures (including personnel
expenditures), Federal Financial Reports, and Categorical Assistance
Progress Reports. In this effort, we employed a judgmental sampling design
to obtain broad exposure to numerous facets of the award reviewed, such as
dollar amounts, expenditure category, or risk. However, this non-statistical
sample design does not allow a projection of the test results for all
cooperative agreement expenditures or metrics.

                                      15

      In addition, we evaluated internal control procedures (including
monitoring of sub-recipients), drawdowns, matching, budget management
and controls, compliance with grant requirements, and program performance
and accomplishments. However, we did not test the reliability of the
financial management system as a whole and reliance on computer based
data was not significant to our objective.




                                   16

                                                                                                             APPENDIX II

                                     CDPS’s RESPONSE TO THE DRAFT REPORT




        cd s                   COLORADO
                               DEPARTMENT
                                                                                                   Colorado Bureau of Investigation
                                                                                                       Ronald C. Sloan, Director
                                                                                                        690 Kipling Sl Ste. 317
                                                                                                          Denver, CO 80215
                                                                                                            (303) 239-4202
                                                                                                         h«p:llcbl.stale.co. usJ
                               OF PUBLIC SAFETY

                                 July 2,2013

                                 David M. Sheeren
                                 Denver Regional Audit Office
                                 Office of the Inspector General
                                 U.S. Department of Justice
                                 1120 Lincoln Street, Suite 1500
                                 Denver, CO 80203

                                 Dear Manager Sheeren,

                                 The Colorado Department of Public Safety, (CDPS), Colorado Bureau oflnvestigation,
                                 (CBI), appreciates this opportunity to provide a written response to the audit report
                                 generated as a result of your staff's on-site review earlier this year of the CBl's
                                 cooperative agreement 2010-DN-BX-K234.

                                 OUf dedication to the people ofthe State of Colorado is evident in our staff's pursuit of
                                 exemplary service. We are passionate supporters of the criminal justice system in all
                                 areas of service from criminal investigations to forensics and information management.
  John W. Hlckenlooper
                                 We are also careful stewards of the taxpayer monies. To that end it appears we have
      GOVERNOR                   been overly cautious by requiring strict commitments from our law enforcement partners.
     J.m.. H . Cavis
  EXECUTIVE DIRECTOR             We welcome recommendations that improve our performance for our citizens and our
      Colorado State             local law enforcement agency customers.
           P'trol
     Colorado Bureau
      cf I nVfl5~g.Uon
        [lj,,;slon 01
                                 This grant is managed by our Investigations unit with critical support from our Cold Case
      aimin . 1Justice           Analyst in collaboration with our forensic DNA laboratory, and is our first attempt at a
      Division   at Fire
   P,_ntion ,nO' COntrol         multi-unit federal program. We are proud of only three recommendations for our first
o vls~ on d Homeland S&eunty     collaborative approach and look forward to continuing to improve our performance.
and Emergency Man.llamant


                                  Recommendation 1: Ensure performance metrics reported to the NIJ accurately
                                  reflect the program accomplishments that have occurred as a result of cooperative
                                  agreement funding.

                                  The Bureau concurs with this recommendation. The CBI unintentionally, underreported
                                  to NIl the actual accomplislunents in one of the semi-annual performance metrics. Our
                                  error was not maintaining an organized communication schedule and thus we were
                                  utilizing partial data rather than ensuring complete data was received timely as the
                                  auditors found in their review. The CBI has now developed a scheduled reporting for
                                  semi-annual metrics to ensure the laboratory reported information is delivered to the
                                  project director approximately two weeks prior to the reporting deadline. Reminders for
                                  this schedule allow for laboratory staff sufficient notice to update the tracking




                                                                     17

spreadsheet that is utilized to report completed cases to the agreement's project director.
This tracking spreadsheet provides the completion date of an analyst's work on any
evidence. It is this completion date that should be used to detennine the accurate
reporting period for any accomplishments.

This two week period also allows the laboratory management suffi cient time 10 ensure
the cases reported for tracking are logged in the Cold Case Analyst file and are properly
recorded in the Laboratory lnfonnalion Management System (LIMS). The LIMS system
provides tracking infonnation for evidence, case processing, and case assigrunents among
other infonnation.

This completed action was implemented on June 15th when the first reminders were sent
to ensure the tracking spreadsheet is completed through the end ofthe month. By the IS'"
of July, the laboratory DNA Agent-in-Charge will be forwarding thc tracking spreadsheet
to the project director within the Investigations unit for metrics reporting due by July
3011>.

This agreement has only one additional metrics reporting period, that being the final
period which will end September 30. The reminder for this period will be distributed on
approximately September 15, with the report delivered to the project director no later
than October 15 to ensure complete reporting by the closeout ofthe awarded agrcemcnt.

Recommendation 2: Ensure that valid and auditable source documentation is
maintained to support both the activity and the period In which it OCCU".

The CBI concurs with this recommendation. We believe that through the action taken to
accomplish recommendation 1, we are also making direct action to rectify this second
recommendation. The LIMS system and tracking spreadsheets will substantiate the
laboratory analyst's completion dates for any case. Subsequently, the reports
documenting the analyst's results made available for law enforcement, we believe,and in
combination with the completion tracking spreadshcct and LIMS data to be valid and
auditable source documentation for perfonnance metrics reporting.

Recommendation 3: Assess the COPS's ability to complete the proposed program
goals prior to the end of the cooperative agreement and evaluate the COPS's need
for any remaining unspent funds.

The Bureau concurs with this recommendation. As stated in the audit report, the CBI is
an assist agency and as such we attempt to nurture our relations with local law
enforcement agencies. Our overriding goal with this grant was to assist these agencies
with the funds nccessary to close cold cases where evidence had potential to reveal DNA
using the latest technologies. Our intent was never to freely distribute funds and to that
end we maintained tight controls of the available funds until agencies not only agreed to
participate but also participated in evidence review meetings and understood that only
overtime and travel-related costs would be reimbursed assuming DNA evidence could
potentially be located.

 Our initial efforts began wi th invitatio ns sent to agencies on July 5, 2011, where we

                                              2




                                     18

believed the potential for DNA was high. The invitation explained the funds available,
and the purpose of the project. This invitation, Attachment I , was sent to more than 80
agencies. A list ofthese agencies is provided in Attachment 2. Of the agencies invited,
only 36 have responded. Follow-up letters were sent in August 201 I, October 2011 , and
January 2012. Emails. and teletype notifications through the Colorado Crime
Infonnation Center (CCIC) have been distributed as well as meetings held with
department chiefs, sheriffs, and district attorneys throughout Colorado to encourage
participation. A sample of the follow up letter can be viewed in Attachment 3.

As of this writing, a final follow up letter has been drafted for agencies with an
anticipated distribution of July IS, 2013 that initially signed participating Memorandums
of Understanding but have not delivered evidence or sought reimbursement for overtime
ortravei to obtain this evidence. This final letter is to infonn these agencies that the CBI
will be terminating their agreements in order to release the federal funds we have
reserved on their behalf if their participation is no longer favorable to the agency. A
sample ofthe final letter can be viewed in Attachment 4.

With some agencies, we saw initial interest and convened evidence review meetings with
staff from the local agency as well as the CBI's investigations and forensics units at
which time items of evidence were identified for submission and analysis. However,
frequently following this meeting the local agency did not follow through with obtaining
and delivering the evidence to our laboratory for analysis. Follow up attempts to retrieve
this evidence include phone caUs with the agencies executive management, and also with
the local investigators for the case.

Within our agency we developed an alternative action plan, Attachment 5, which, as
referenced in the audit report, may be a lale attempt but does focus on in-depth case
review. This action plan makes direct attempts by CBI to collect the evidence ourselves.
 It is our intention, as it has always been, to serve our State citizens within the boundaries
of our role as an assist agency. As we have discovered through this project, this role, if
managed in certain hands-off directional methods can hinder our progress. Currently, the
funding reprogrammed with the GAN for this init iative also limits our progress but, we
intend to request another reallocation of unspent funds. These funds would be
reprogrammed from the funds currently committed to agencies that have been proven to
be nonresponsive agencies and allocated into this alternative action plan to draw as much
success out of our program as possible.

It is unclear to the CBI why eligible agencies elected to not respond, nor why agencies
who initially agreed to participate have not been respo nsive. A recent local media outlet
uncovered evidence management issues with oneofour larger participating agencies, but
the effect of this issue on the progress of this program has not been communicated to the
CBI nor does the CBI expect this issue explains other local agencies lack of actual
participation.

In conclusion, we acknowledge we have learned lessons from this first collaborative
cooperative agreement. Some ofthese lessons have been internal and some lessons have
exposed relationship management concerns we wi ll address separatc from our
cooperative agreement. It is our hope that the Department of Justice recognizes our

                                              l




                                     19

   good faith effort to manage their funds while providing a supportive role as an assisting
   agency. We hope to successfully be awarded other funding programs that also support
   the investigation of cold cases. We will certainly use the lessons learned from this first
   experience to develop a better action next time. The CBI, as akin to DOJ, seeks to
   enhance justice for all victims.

   Sincerely,



  04!Jr~
   Ronald C. Sloan
   Director
   Colorado Bureau of Investigation



~_-I u--- , \,>Aa, l!traG~
   Teri J.Sid:~
   Accountant
   Colorado Bureau of Investigation


   cc:     Linda J. Taylor
           U.S. Department of Justice
           Office of Justice Programs
           Office of Audit, Assessment and Management
           Lead Auditor, Audit Coordination Branch
           Audit and Review Division

           Chris Andrist
           Colorado Department of Public Safety
           Colorado Bureau of Investigation
           Agent-in-Charge
           Project Director, NIJ Solving Cold Case with DNA

           Steve Johnson
           Colorado Department of Public Safety
           Colorado Bureau of Investigation
           Assistant Director, Investigations Unit

           Jan Girten
           Colorado Department of Public Safety
           Colorado Bureau of Investigation
           Director, Forensic Services




                                                4




                                       20

                                                                                   APPENDIX III

                OJP’s RESPONSE TO THE DRAFT REPORT
                                                   U.S. Dep artme nt of JusCice

                                                  Office of Justice Programs

                                                  Office ofAudit, Assessment, and Management


                                                 w.... ~l><t'''''' D .C.   20HI

     JUL 16 2013


MEMORANDUM TO:                David M. Sheeren
                              Regional Audit Manager
                              Denver Regional Audit Office
                              Office o h hc Inspector Gene ral

FROM:                         Maurec: n ~. H,e~.ebe~ _                      _
                              Director   ~ ~u..r--

SUDJECT:                     Response to the Draft Aud it Report, Allllil oflhe Office ofJus/ice
                             Programs, Nolional Instill/Ie ofJustice, Cooperative Agreement
                             Awarded to the Colorado Deparlmt:nl of Public SoftlY, Denver,
                             Colorado

This memo randum is in reference to your correspondence, dated June 12, 2013, transmitting the
above-referenced drall audit report for the Colorado Department of Public Safety (CDPS). We
consider the subject report resolved and request written acceptance of this action from your
office.

The drall report contains three recommendations lind no questioned costs. '11e fo llowing is the
Office o f J ustice Programs' (OJP) analysis of the draft audit report recommendations. For ease
of rev ie w, the recommendations are restated in bold and nrc followed by O UT response.

I.      We recommend that OJP coordinate with t he C OPS to ensure that performance
        mctrics reported to t he Natio na l Institute or J ustice (NIJ) aecur:ltely relbet the
        program accomplishments tbat have oecurred 11111 a res ult orcoopcrative ag recmcnt
        rundin g.

        DJP agrees with the recommendation. We will coordinate with the COPS to obtain a
        copy of procedures implemented to ensure that future pcrfonnance mctrics reported to the
        National Institute of Justice accurately reflect thc program accomplishments that have
        occurred as a result of fundi ng by DlP.




                                               21

2.     We recommend that OJP coordinate with t he COPS 10 ensure I.bat valid a nd
       a udita ble source documentation is maintained to s upport both the aetivity and t he
       period in which it occurs.

       OIP agrees with the recommendation. We will coordinate with the COPS to obtain a
       copy of procedures implemented to ensure that documentation is maintained for future
       auditing purposes, to support both the activity and the period in which it occurs,

3.     We r ecommend that OJP eoordinate with the COIJS to assess t he CDPS's a bility to
       complete the proposed pnlgmm goals prior to the cnd of the COOIJCrative a greement
       and evaluate t he CO I' S's need for a ny remaining UnSI)ent funds.

       OJP agrees with the recommendation. We will coordinate with the COPS to obtain
       documentation to assess their ability 10 complete the proposed program goals and
       objectives prior to the end of the cooperative agreement, and evaluate the CDpS' need for
       any remaining unspent funds. Specifically, OJP will request a deUliled timeline from the
       COPS for thc remainder of the project period, including a description of how the program
       goals and objectives will be accomplished under the current time frame.

We appreciate the opportunity to review and comment on the droll audit report. If you have any
questions or require additional infonn3tion, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 6 16-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Gregory Ridgeway
       Acting Director
       National Institute of Justice

       Po rtia Graham
       Acting Office Director, Office ofOp.:rations
       National Institute of Justice

       Charlene Hunter
       Program Analyst
       National Institute of Justice

       Charles Heurich
       Program Manager
       Nntionallnstitute of Justice




                                              22

cc:   Ric:hard I). Theis
      Assistanl Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      Marcia L. Wallace
      Director, Offic:c ofOpcrations - Audit Division
      Offic:e of the Inspector General

      OJ P Executive Secretariat
      Control Number 20130900




                                             23

                                                           APPENDIX IV

              OFFICE OF THE INSPECTOR GENERAL
	
             ANALYSIS AND SUMMARY OF ACTIONS
	
               NECESSARY TO CLOSE THE REPORT
	

      The OIG provided a draft of this audit report to the Colorado
Department of Public Safety (CDPS) and the Office of Justice Programs
(OJP). CDPS’s response is incorporated as Appendix II of this final report,
and OJP’s response is included as Appendix III. The following provides the
OIG’s analysis of the responses and summary of OJP actions necessary to
close the report.

Recommendation Number:

  1. Resolved.		 In its response, OJP agreed with our recommendation to
     coordinate with the CDPS to ensure that reported performance metrics
     accurately reflect the program accomplishments. OJP stated that it
     will coordinate with the CDPS to obtain a copy of the implemented
     procedures.

     In its response, the CDPS agreed with our recommendation and stated
     that only partial performance was reported to the NIJ as a result of a
     lack of an organized communication schedule between the
     Investigations unit, the forensic DNA laboratory, and the project
     director. The CDPS had previously provided the performance metric
     tracking spreadsheets from both the laboratory and the Investigations
     unit, and stated in its response that on June 15, 2013, it implemented
     policies to ensure that complete performance data from both the
     laboratory and the Investigations unit is delivered to the project
     director two weeks prior to the reporting deadline.

     This recommendation can be closed when OJP provides evidence that
     it obtained and reviewed the procedures implemented to ensure that
     future performance metrics reported to the National Institute of Justice
     accurately reflect the program accomplishments that have occurred as
     a result of OJP funding.

  2. Resolved.		 In its response, OJP agreed with our recommendation to
     coordinate with the CDPS to ensure that valid and auditable source
     documentation is maintained to support both the activity and the



                                     24

  period in which it occurs. OJP stated that it will coordinate with the
  CDPS to obtain a copy of the implemented procedures.

  In its response, the CDPS agreed with our recommendation and stated
  that only partial performance was reported to the National Institute of
  Justice (NIJ) as a result of a lack of an organized communication
  schedule between the Investigations unit, the forensic DNA laboratory,
  and the project director. The CDPS also stated that they believed that
  the actions taken to address recommendation 1 also address this
  recommendation, and that source data from the laboratory information
  management system (LIMS) and the Investigations unit tracking
  spreadsheet are maintained to substantiate the reported performance.

  This recommendation can be closed when we receive evidence that
  OJP obtained and reviewed the procedures implemented to ensure that
  CDPS documentation is maintained for future auditing purposes, to
  support both the activity and the period in which it occurs.

3. Resolved. 	 In its response, OJP agreed with our recommendation to
   assess the CDPS’s ability to complete the proposed program goals
   prior to the end of the cooperative agreement and evaluate the CDPS’s
   need for any remaining unspent funds. OJP stated that it will request
   a detailed timeline from the CDPS for the remainder of the project
   period, including a description of how the program goals and
   objectives will be accomplished under the current time frame.

  In its response, the CDPS agreed with our recommendation and stated
  that it has attempted to obtain participation from local law
  enforcement agencies several times beginning in July 2011. The CDPS
  provided a copy of a final follow up letter requesting participation from
  local law enforcement agencies. Additionally, the CDPS provided a
  detailed action plan outlining the timeline and milestones for the final
  six months of the program.

  This recommendation can be closed when we receive evidence that
  OJP obtained and reviewed the documentation that assesses CDPS’s
  ability to complete the proposed program goals and objectives prior to
  the end of the cooperative agreement, and evaluates the CDPS’s need
  for any remaining unspent funds.




                                  25

